("""'4        DEPARTMENT OF HEALTH & HUMAN SERVICES
                                                                                      Office of Inspector General
                                                                                      Offices of Audit Services


~"~'l.~                                                                               Region VII
                                                                                      601 East 12th Street
                                                                                      Room 284A
                                                                                      Kansas City, Missouri 64106
          January 16,2009

          Report Number: A-07-08-03112

          Mr. Eugene 1. Gessow

          Director

          Iowa Department of Human Services

          Hoover State Office Building

          1305 East Walnut Street

          Des Moines, Iowa 50319-0114


          Dear Mr. Gessow:

          Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
          General (OIG), final report entitled "Iowa Medicaid Payments Claimed for Children's Remedial
          Services." We will forward a copy of this report to the HHS action official noted on the
          following page for review and any action deemed necessary.

          The HHS action official will make final determination as to actions taken on all matters reported.
          We request that you respond to this official within 30 days from the date of this letter. Your
          response should present any comments or additional information that you believe may have a
          bearing on the final determination.

          Pursuant to the principles of the Freedom ofInformation Act, 5 U.S.c. § 552, as amended by
          Public Law 104-231, OIG reports generally are made available to the public to the extent the
          information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this report
          will be posted on the Internet at http://oig.hhs.gov.

          If you have any questions or comments about this report, please do not hesitate to call me at
          (816) 426-3591, or contact Greg Tambke, Audit Manager, at (573) 893-8338 or through e-mail
          at Greg.Tambke@oig.hhs.gov. Please refer to report number A-07-08-03112 in all
          correspondence.

                                                       Sincerely,



                                                       Patrick . Cogley
                                                       Regional Inspector General
                                                        for Audit Services


          Enclosure
Page 2 - Mr. Eugene T. Gessow


Direct Reply to HHS Action Official:

Ms. Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children's Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, lllinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   IOWA MEDICAID PAYMENTS
    CLAIMED FOR CHILDREN’S
      REMEDIAL SERVICES




                    Daniel R. Levinson
                     Inspector General

                      January 2009
                      A-07-08-03112
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
' 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare and Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Iowa, the Iowa Department of Human Services
(State agency) administers the Medicaid program.

Section 1905(a)(13) of the Social Security Act authorizes State Medicaid agencies to provide
rehabilitative services and defines these services as any medical or remedial services
recommended by a physician or other licensed practitioner of the healing arts within the scope of
his or her practice under State law, for the maximum reduction of physical or mental disability
and restoration of an individual to the best possible functional level. The Iowa Administrative
Code describes remedial services as health or behavior interventions that are used to modify the
psychological, behavioral, emotional, cognitive, and social factors affecting a beneficiary’s
functioning. Children’s remedial services are provided to Medicaid beneficiaries who are aged
20 or under and who have a diagnosed psychological disorder.

In 2001, CMS requested that the Office of Inspector General review Iowa’s Rehabilitative
Treatment Services Program. We conducted five concurrent reviews of the Rehabilitative
Treatment Services Program, which resulted in total questioned costs of approximately $6.5
million (Federal share). The Rehabilitative Treatment Services Program was phased out in 2006
and succeeded by the Remedial Services Program. On October 1, 2006, the State agency began
providing services and claiming costs under the Remedial Services Program. The review of
remedial services was conducted as a follow-up to the Rehabilitative Treatment Services
reviews.

OBJECTIVE

Our objective was to determine whether Iowa Medicaid payments for children’s remedial
services provided and paid for the period of February 1, 2007, through March 31, 2008, were
allowable pursuant to Federal requirements.

SUMMARY OF FINDINGS

Contrary to Federal requirements, the State agency claimed some unallowable children’s
remedial services for the period of February 1, 2007, through March 31, 2008. Of the 200 claims
in our sample, 194 claims were allowable, and the State agency did not properly claim 6 claims.
Specifically, the State agency improperly claimed Federal reimbursement for (a) five claims for
which the documentation provided did not describe the nature, extent, or units of service to
support that an allowable service had been provided, and for (b) one claim in which the services



                                                i
provided did not address the beneficiary’s physical or mental health. Although the State agency
has made significant improvements in its efforts to implement additional controls, these
unallowable services were claimed because the State agency did not always have sufficient
internal controls to ensure that it properly claimed these services for Federal reimbursement. As
a result, the State agency improperly claimed $2,134 ($1,317 Federal share) for children’s
remedial services that did not comply with Federal requirements.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,317 (Federal share) to the Federal Government for unallowable children’s
       remedial services, and

   •   continue to strengthen its internal controls to ensure that children’s remedial services
       claimed for Federal reimbursement are provided in accordance with Federal requirements
       and are sufficiently documented to support the provision of children’s remedial services.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the State agency concurred with our second
recommendation and concurred in part with our first recommendation. The State agency
concurred with six of the eight claims that we had questioned in our draft report and did not
concur with our findings on the remaining two questioned claims.

After reviewing the State agency’s written comments and the subsequent documentation it
provided, we adjusted our final report to accept the two previously questioned claims with which
the State agency had nonconcurred, and to adjust our recommendations accordingly.

The State agency’s comments appear in their entirety as Appendix C.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION..........................................................................................................................1

          BACKGROUND .................................................................................................................1
              Medicaid Program....................................................................................................1
              Remedial Services....................................................................................................1
              Iowa Children’s Remedial Services.........................................................................1
              Previous Office of Inspector General Reviews of the
                Iowa Rehabilitative Treatment Services Program ...............................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................2
               Objective ..................................................................................................................2
               Scope .......................................................................................................................2
               Methodology ...........................................................................................................2

FINDINGS AND RECOMMENDATIONS ................................................................................3

          UNALLOWABLE CHILDREN’S REMEDIAL SERVICES.............................................4
              Insufficient Documentation .....................................................................................4
              Non-Medical Services..............................................................................................4

          NEED FOR CONTINUED STRENGTHENING OF INTERNAL CONTROLS ..............5

          RECOMMENDATIONS.....................................................................................................5

          STATE AGENCY COMMENTS AND OFFICE OF
               INSPECTOR GENERAL RESPONSE ...................................................................5

APPENDIXES

          A – SAMPLING METHODOLOGY FOR CLAIMS FROM LUTHERAN SERVICES
             IN IOWA

          B – SAMPLING METHODOLOGY FOR CLAIMS FROM OTHER REMEDIAL
             SERVICE PROVIDERS IN IOWA

          C – STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare and Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Iowa, the Iowa Department of Human Services
(State agency) administers the Medicaid program.

Remedial Services

Section 1905(a)(13) of the Social Security Act authorizes State Medicaid agencies to provide
rehabilitative services and defines these services as any medical or remedial services
recommended by a physician or other licensed practitioner of the healing arts within the scope of
his or her practice under State law, for the maximum reduction of physical or mental disability
and restoration of an individual to the best possible functional level.

Iowa Children’s Remedial Services

Remedial services are intended to minimize or eliminate the symptoms or causes of a
psychological disorder. The Iowa Administrative Code describes remedial services as health or
behavior interventions that are used to modify the psychological, behavioral, emotional,
cognitive, and social factors affecting a beneficiary’s functioning. Health and behavior
interventions are provided to individuals, families, and groups. In addition, crisis intervention
services are provided to individuals to reduce situations in which a risk to self, others, or
property exists. Children’s remedial services are provided to Medicaid beneficiaries who are
aged 20 or under and who have a diagnosed psychological disorder.

Previous Office of Inspector General Reviews of the Iowa Rehabilitative Treatment
Services Program

In 2001, CMS requested that the Office of Inspector General review Iowa’s Rehabilitative
Treatment Services Program. We conducted five concurrent reviews of the Rehabilitative
Treatment Services Program, reviews which examined group care services, family-centered
services, family foster care services, family preservation services, and Rehabilitative
Treatment Services claimed under the State Children’s Health Insurance Program. The
combined questioned costs for the five reviews totaled approximately $6.5 million (Federal




                                                1
share). 1 Significant findings in these previous reviews included the fact that providers had
furnished services that were not rehabilitative and thus not allowable for Federal reimbursement,
and the fact that documentation did not always properly support billed services.

The Rehabilitative Treatment Services Program was phased out in 2006 and succeeded by the
Remedial Services Program. On October 1, 2006, the State agency began providing services and
claiming costs under the Remedial Services Program. The review of remedial services was
conducted as a follow-up to the Rehabilitative Treatment Services reviews.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Iowa Medicaid payments for children’s remedial
services provided and paid for the period of February 1, 2007, through March 31, 2008, were
allowable pursuant to Federal requirements.

Scope

We reviewed the State agency’s claims for Medicaid reimbursement for children’s remedial
services for the period of February 1, 2007, through March 31, 2008. The State agency claimed
$34,401,297 for children’s remedial services for this period. 2

We did not review the State agency’s overall internal control structure because our objective did
not require us to do so. We limited our internal control review to those controls related directly
to the procedures for claiming children’s remedial services.

We conducted our fieldwork from July through September 2008 at the State agency and at 33
provider locations throughout Iowa.

Methodology

To accomplish our objective, we:

    •   reviewed Federal and State laws, regulations, and other requirements regarding Medicaid
        reimbursement for children’s remedial services, as well as the Iowa State Plan;

1
 The subjects for the five Rehabilitative Treatment Services Program reviews are as follows: Audit of Medicaid
Claims for Iowa’s Rehabilitative Treatment Services Group Care Program (A-07-02-03026); Title XIX Financial
Participation Claimed for Rehabilitative Treatment Services Family-Centered Services (A-07-02-03023); Title XIX
Financial Participation Claimed for Rehabilitative Treatment Services Family Foster Care (A-07-02-03025); Title
XIX Financial Participation Claimed for Rehabilitative Treatment Services Family Preservation (A-07-02-03024);
and Title XXI Financial Participation Claimed for Rehabilitative Treatment Services State Children’s Health
Insurance Program (A-07-02-03027).
2
 Of the total amount claimed, $3,108,835 represented expenditures claimed for services provided by Lutheran
Services in Iowa. The remaining $31,292,462 represented expenditures claimed for services provided by all other
children’s remedial service providers in Iowa.


                                                        2
    •   held discussions with State agency officials to obtain an understanding of procedures for
        claiming children’s remedial services;

    •   obtained claims data from the State agency’s Medicaid Management Information System
        (MMIS) for children’s remedial services provided for the period of February 1, 2007,
        through March 31, 2008;

    •   reconciled the MMIS claims data to the State agency’s standard Form CMS-64,
        “Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program,”
        submitted for Federal reimbursement for the period of February 1, 2007, through March
        31, 2008;

    •   selected a simple random sample of 200 children’s remedial claims totaling $29,296; 3
        and

    •   obtained and reviewed the supporting documentation for each sampled claim to
        determine the allowability of the claim.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                             FINDINGS AND RECOMMENDATIONS

Contrary to Federal requirements, the State agency claimed some unallowable children’s
remedial services for the period of February 1, 2007, through March 31, 2008. Of the 200 claims
in our sample, 194 claims were allowable, and the State agency did not properly claim 6 claims.
Specifically, the State agency improperly claimed Federal reimbursement for (a) five claims for
which the documentation provided did not describe the nature, extent, or units of service to
support that an allowable service had been provided, and for (b) one claim in which the services
provided did not address the beneficiary’s physical or mental health. Although the State agency
has made significant improvements in its efforts to implement additional controls, these
unallowable services were claimed because the State agency did not always have sufficient
internal controls to ensure that it properly claimed these services for Federal reimbursement. As
a result, the State agency improperly claimed $2,134 ($1,317 Federal share) for children’s
remedial services that did not comply with Federal requirements.




3
 Our review consisted of two random samples of 100 claims each. For reporting purposes, we combined the results
of the two samples. We selected 100 claims, totaling $10,400, for children’s remedial services provided by
Lutheran Services in Iowa. See Appendix A. The other 100 sampled claims, totaling $18,896, came from all other
children’s remedial service providers in Iowa. See Appendix B. The total of our sampled claims was $29,296.


                                                       3
UNALLOWABLE CHILDREN’S REMEDIAL SERVICES

Insufficient Documentation

The CMS “State Medicaid Manual,” section 2500.2(A), requires that the State agency:

       Report only expenditures for which all supporting documentation, in readily
       reviewable form, has been compiled and which is immediately available when the
       claim is filed. Your supporting documentation includes as a minimum the
       following: date of service, name of recipient, Medicaid identification number,
       name of provider agency and person providing the service, nature, extent, or units
       of service, and the place of service. [Emphasis added.]

Contrary to these provisions of the CMS “State Medicaid Manual,” the State agency did not
properly claim 5 of the 200 children’s remedial services claims reviewed. For these five claims,
the case files did not document the nature, the extent, or the units of service to support that an
allowable service had been provided. Examples of insufficiently documented and therefore
unallowable claims included the absence of case note documentation to support billed services,
services that were billed when the beneficiary was not present at the provider’s facility, and
claims for an overlapping service (e.g. an individual service billed at the same time as a group
service).

Non-Medical Services

The CMS “State Medicaid Manual,” section 4385(B), requires that remedial services:

           •   involve direct patient care; and

           •   are for the express purpose of diagnosing, treating or preventing (or
               minimizing the adverse effects of) illness, injury or other impairments to
               an individual’s physical or mental health.

       In order for a service to be covered, it must meet both of these elements.
       Therefore, preventive services that involve no direct patient care, such as services
       applied at the community level, or environmental services dealing exclusively
       with an individual’s surroundings rather than the individual, are not covered.

Contrary to these provisions of the CMS “State Medicaid Manual,” the State agency did not
properly claim 1 of the 200 children’s remedial services claims reviewed. For this claim, the
services provided did not address the beneficiary’s physical or mental health, as mandated by
Federal requirements. The services provided consisted of the provider instructing the beneficiary
to complete chores and prepare for a meal. In addition, we found case note documentation that
included the provider’s observations of the beneficiary playing basketball and dodgeball. These
interactions between the provider and the beneficiary constituted non-medical services rather
than direct patient care or diagnosis and treatment, and were consequently not allowable for
Federal reimbursement.


                                                  4
NEED FOR CONTINUED STRENGTHENING OF INTERNAL CONTROLS

In the time period since our reviews of the Iowa Rehabilitative Treatment Services Program (the
predecessor to this program), the State agency has made significant improvements in its efforts
to implement additional controls, to include educating children’s remedial service providers as to
the requirements for adequate documentation of services rendered. However, the fact that the
State agency did not always properly claim children’s remedial services for Federal
reimbursement points to the need for continued strengthening of internal controls. Specifically,
the State agency did not always exercise sufficient oversight of the documentation as to support
the provision of services and to ensure that the services were provided in accordance with
Federal requirements.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,317 (Federal share) to the Federal Government for unallowable children’s
       remedial services, and

   •   continue to strengthen its internal controls to ensure that children’s remedial services
       claimed for Federal reimbursement are provided in accordance with Federal requirements
       and are sufficiently documented to support the provision of children’s remedial services.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the State agency concurred with our second
recommendation and concurred in part with our first recommendation. The State agency
concurred with six of the eight claims that we had questioned in our draft report and did not
concur with our findings as to insufficient documentation on the remaining two questioned
claims.

After reviewing the State agency’s written comments and the subsequent documentation it
provided, we adjusted our final report to accept the two previously questioned claims with which
the State agency had nonconcurred, and to adjust our recommendations accordingly.

The State agency’s comments appear in their entirety as Appendix C.




                                                5
APPENDIXES
                                                                                                    APPENDIX A


                             SAMPLING METHODOLOGY FOR
                        CLAIMS FROM LUTHERAN SERVICES IN IOWA

POPULATION

The population consisted of 46,542 claims representing children’s remedial services provided by
Lutheran Services in Iowa, totaling $3,108,835 for claims provided and paid for the period of
February 1, 2007, through March 31, 2008. 1

SAMPLING FRAME

The sampling frame is a database of claim records consisting of 46,542 claims totaling
$3,108,835 for children’s remedial services provided and paid for the period of February 1, 2007,
through March 31, 2008.

SAMPLE UNIT

The sampling unit is one beneficiary claim.

SAMPLE DESIGN

We used a random number generator to develop a simple random sample, selected from all
claims for the Iowa children’s remedial services provided by Lutheran Services in Iowa.

SAMPLE SIZE

We selected 100 sample units (beneficiary claims) for review.

SOURCE OF THE RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services, statistical software
RAT-STATS to generate random numbers.

METHOD OF SELECTING SAMPLE ITEMS

We combined the children’s remedial service claims for Lutheran Services in Iowa into one
database table and sorted them by paid date, reimbursement amount, and beneficiary Medicaid
identification number. Each sampling unit was assigned a sequential number, which resulted in a
total count of 46,542 in the population. Random numbers were generated based on the total
count and matched to the corresponding sample unit number.




1
 Due to the low number of errors and the corresponding low statistical precision, we did not use a projection for this
report.
                                                                                                    APPENDIX B



                       SAMPLING METHODOLOGY FOR
          CLAIMS FROM OTHER REMEDIAL SERVICE PROVIDERS IN IOWA

POPULATION

The population consisted of 139,084 claims representing children’s remedial services provided
by all other providers (less Lutheran Services in Iowa) in the State of Iowa, totaling $31,292,462
for claims provided and paid for the period of February 1, 2007, through March 31, 2008. 1

SAMPLING FRAME

The sampling frame is a database of claim records consisting of 139,084 claims totaling
$31,292,462 for children’s remedial services provided and paid for the period of February 1,
2007, through March 31, 2008.

SAMPLE UNIT

The sampling unit was one beneficiary claim.

SAMPLE DESIGN

We used a random number generator to develop a simple random sample from all claims for
children’s remedial services provided by all other providers (less Lutheran Services in Iowa) in
the State of Iowa.

SAMPLE SIZE

We selected 100 sample units (beneficiary claims) for review.

SOURCE OF THE RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services, statistical software
RAT-STATS to generate random numbers.

METHOD OF SELECTING SAMPLE ITEMS

We combined the children’s remedial service claims for all other providers (less Lutheran
Services in Iowa) in the State of Iowa into one database table and sorted them by paid date,
reimbursement amount, and beneficiary Medicaid identification number. Each sampling unit
was assigned a sequential number, which resulted in a total count of 139,084 in the population.
Random numbers were generated based on the total count and matched to the corresponding
sample unit number.


1
 Due to the low number of errors and the corresponding low statistical precision, we did not use a projection for this
report.
APPENDIX C
  Page 1 of 6
APPENDIX C
  Page 2 of 6
APPENDIX C
  Page 3 of 6
APPENDIX C
  Page 4 of 6
APPENDIX C
  Page 5 of 6
APPENDIX C
  Page 6 of 6
